HHS/OIG, Audit - "Review of Medicaid Overpayments at First Atlantic
Nursing Facilities in Maine for Calendar Years 2004 Through 2006,"
(A-01-07-00009)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Overpayments at First Atlantic
Nursing Facilities in Maine for Calendar Years 2004 Through 2006," (A-01-07-00009)
May 29, 2008
Complete
Text of Report is available in PDF format (421 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Maine
Department of Health and Human Services made overpayments
totaling $1.2 million ($742,000 Federal share) to First Atlantic Healthcare
Corporation (First Atlantic) on behalf of an average of 75 Medicaid
beneficiaries each month during calendar years 20042006.  Medicaid requires
States to use any additional resources that a beneficiary has, including Social
Security payments, to reduce Medicaid payments to nursing homes.  However,
because of problems with its new computer system, the State did not
adjust its Medicaid per diem payments to First Atlantic by the amount of
beneficiaries cost-of-care contribution from other resources, such as Social
Security and pensions.  We recommended that the State collect
overpayments totaling $1.2 million from First Atlantic; refund the $742,000
Federal share of these overpayments; and continue its efforts to ensure that
Medicaid overpayments to nursing homes are identified, collected, and refunded.
The State concurred with our finding and recommendations.